NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Unitrfr jitates (Hour! of i\pp2als
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 2, 2020*
Decided November 4, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-1452
KHALED SHABANI,
Plain tiff-Appellant,

Appeal from the United States District
Court for the Western District of Wisconsin.

v.

No. 19-cv-65-bbc

CITY OF MADISON, et al,
Defendants-Appellees.

Barbara B. Crabb,
Judge.

ORDER
This is one of several lawsuits that Khaled Shabani brought against the City of
Madison and its police officers. He asserts that, on various occasions, officers falsely
arrested him, failed to intervene to prevent an officer's use of excessive force against
We have agreed to decide the case without oral argument because the briefs
and record adequately present the facts and legal arguments, and oral argument would
not significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

Case: 20-1452

No. 20-1452

Document: 00713722981

Filed: 11/30/2020

Pages: 2

Page 2

him, and retaliated against him for his prior suits. The district court entered summary
judgment for the defendants, concluding that his false-arrest claim was barred by the
doctrine of claim preclusion and unsupported by any evidence, and that his remaining
claims also lacked evidentiary support. He filed a notice of appeal, but later moved to
reopen the case so that he could submit evidence. The district court noted that Shabani
neither substantiated his motion nor specified the relief he sought, so it denied the
motion.
Construing Shabani's appellate brief liberally, see Anderson v. Hardman, 241 F.3d
544, 545 (7th Cir. 2001), we discern only one argument: that the district court's allegedly
erroneous denial of his motion to reopen prevented him from introducing evidence to
defeat summary judgment. But we lack jurisdiction to review this denial because
Shabani filed his motion to reopen after filing his notice of appeal. His failure to file a
separate notice of appeal from that decision means that we cannot review it. See Sosebee
v. Astrue, 494 F.3d 583, 590 (7th Cir. 2007).
Otherwise, Shabani's brief fails to develop any basis for disturbing the district
court's judgment. He does not specify any errors in the court's decision, nor does he
engage the court's rationale for ruling against him. As we have explained, "a brief must
contain an argument consisting of more than a generalized assertion of error, with
citations to supporting authority." Anderson, 241 F.3d at 545, see also Fed. R.
App. P. 28(a)(8)(A).
This appeal is frivolous. And it is just one among many frivolous suits that
Shabani has filed in the past few years. He lost a suit in 2016 against the Madison Police
Department and did not appeal. He filed two suits this year that were promptly
dismissed by the district judge as frivolous, and in each the judge certified that an
appeal also would be frivolous. Shabani appealed anyway, but this court agreed with
the judge in each of those cases and denied his motions to proceed in forma pauperis.
Meanwhile Shabani has filed and lost at least eight similar suits in state court. It is thus
evident that he is abusing the privilege of litigating in forma pauperis. We now order that
in all of his future civil suits—in district courts of this circuit, as well as in the court of
appeals—he prepay the filing fees in full. In other words, his entitlement to litigate in
forma pauperis is revoked because of his persistent misuse of that option.
DISMISSED

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
November 4, 2020

Before:

FRANK H. E ASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DIANE P. WOOD, Circuit Judge

KHALED SHABANI,
Plaintiff - Appellant
No. 20-1452

v.
CITY OF MADISON, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:19-cv-00065-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb
The appeal is DISMISSED, with costs, in accordance with the decision of this court entered on
this date.
This appeal is frivolous. And it is just one among many frivolous suits that Shabani has filed in
the past few years. We now order that in all of Khaied Shabani's future civil suits—in district
courts of this circuit, as well as in the court of appeals—he prepay the filing fees in full. In other
words, his entitlement to litigate in forma pauperis is revoked because of his persistent misuse of
that option.

form name: c7_FinalJudgment(form ID: 132)

Case: 20-1452

Document: 11-1

Filed: 05/08/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 • 239 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
May 8, 2020
KHALED SHABANI,
Plaintiff - Appellant
No. 20-1452

v.
CITY OF MADISON, et al..
Defendants - Appellees

Originating Case Information:
District Court No: 3:19-cv-00065-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb
The following is before the court: LETTER, filed on May 7, 2020, by the pro se
appellant.
It is unclear exactly what relief the appellant seeks in the letter. To the extent that the
appellant would like this filing to serve as his opening brief,
IT IS ORDERED that the request is DENIED. The "brief" is procedurally deficient and
fails to comply with the court's rules. Accordingly, the court will take no action on the
appellant's letter. The clerk will send the appellant this court's brief information sheet
for pro se litigants, so that the appellant may familiarize himself with the court's
expectations for briefs. Briefing will proceed as follows:
1. The brief and required short appendix of the appellant are due by June 15, 2020.
2. The brief of the appellees is due by July 15, 2020.
3. The reply brief of the appellant, if any, is due by August 5, 2020.
Important Scheduling Notice!
Hearing notices are mailed shortly before the date of oral argument. Criminal appeals are scheduled shortly after the
filing of the appellant's main brief; civil appeals are scheduled after the filing of the appellee's brief. If you foresee
that you will be unavailable during a period in which your appeal might be scheduled, please write the clerk
advising him of the time period and the reason for your unavailability. The court's calendar is located at
http://www.ca7.uscourts.gov/cal/argcalendar.pdf. Once an appeal has been scheduled for oral argument, it is very
difficult to have the date changed. See Cir. R. 34(e).

Case: 3:19-cv-00065-bbc Document#: 49 Filed: 03/12/20 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
KHALED SHABANI
OPINION AND ORDER
Plaintiff,
19-cv-65-bbc
v.

CITY OF MADISON, MICHAEL ICOVAL,
DAMION FIGUEROA, KEVIN COSTIN
and HAMP JOHNSON,
Defendants.
Pro se plaintiff Khaled Shabani is proceeding on (1) First Amendment claims that
defendants City of Madison, Damion Figueroa, Kevin Costin, Hamp Johnson and Michael
Koval retaliated against him in various ways for his filing of lawsuits and other complaints
against members of the police department; (2) a Fourth Amendment claim that defendant
Figueroa falsely arrested him for disorderly conduct on December 22,2017; and (3) a Fourth
Amendment claim that defendants Costin and Johnson failed to intervene to prevent an
undercover officer’s use of excessive force against plaintiff. Before the court is defendants’
motion for summary judgment. Dkt. #27. Because plaintiff s false arrest claim is barred by
the doctrine of claim preclusion and plaintiff has failed to produce any evidence to establish
the key elements of any of his claims, I am granting the motion and entering judgment in
favor of defendants.
Although plaintiff filed a short brief in response to defendants’ motion for summary
judgment and made statements in response to some of defendants’ proposed findings of fact,
he did not file an affidavit, present any other admissible evidence or file any proposed
1

Case: 3:19-cv-00065-bbc Document#: 49 Filed: 03/12/20 Page 2 of 13

findings of fact of his own to support his claims.

This court’s summary judgment

procedures, which were attached to the July 11, 2019 preliminary pretrial conference order
entered in this case, dkt. #18, warn litigants that “[ujnless the responding party puts into
dispute a fact proposed by the moving party, the court will conclude that the fact is
undisputed.” Proc. to be Followed on Motions for Summ. Judg., § II.C. at p. 6. The
procedures also instruct parties that “[a]ll facts necessary to sustain a party’s position on a
motion for summary judgment must be explicitly proposed as findings of fact,” and “[t]he
court will not search the record for factual evidence. Even if there is evidence in the record
to support your position on summary judgment, if you do not propose a finding of fact with
the proper citation, the court will not consider that evidence when deciding the motion.
Your brief is the place to make your legal argument, not to restate the facts.” IdL at p. 1.
The Court of Appeals for the Seventh Circuit “has routinely held that a district court
may strictly enforce compliance with its local rules regarding summary judgment motions.”
Abraham v. Washington Group International, Inc., 766 F.3d 735, 737 (7th Cir. 2014). See
also Schmidt v. Eagle Waste <Sc Recycling, Inc., 599 F.3d 626, 630-31 (7th Cir. 2010)
(holding that the district court did not err when it deemed the defendant’s proposed findings
of fact admitted and refused to consider additional facts for the plaintiff’s failure to follow
the local procedures on proposed findings of fact). Therefore, in accordance with this court’s
summary judgment procedures, I have considered as undisputed any facts proposed by
defendants that are supported properly and sufficiently by admissible evidence.
From defendants’ proposed findings of fact, I find the following facts to be material

2

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 3 of 13

and undisputed unless otherwise noted.

UNDISPUTED FACTS
A. The Parties
Plaintiff Khaled Shabani is a Wisconsin resident and has worked as a stylist at Ruby’s
Salon on State Street in Madison. (Plaintiff alleged in his complaint that he owns Ruby’s,
but the parties have not proposed any findings of fact bearing on the ownership of the
salon.) At all times relevant to this lawsuit, defendants were employees of defendant City
of Madison: Michael Koval was the chief of police and Damion Figueroa, Kevin Costin and
Hamp Johnson were police officers.

B. 2015 Injuries to Plaintiffs Daughter
Plaintiff has a minor child, R., with his ex-wife, Mafaz Naji. Naji is a registered nurse
who works at a local hospital in Madison. She has always had primary physical custody of
R. In early October 2015, when R. was about two and a half years old, she fell off a swing
at a playground near Naji’s home and sustained a small scrape and bruising to her upper
right cheek and eye. Naji was with R. at the time of the fall and personally observed the
injuries. Naji’s training and experience as a nurse led her to believe that R. did not need any
medical treatment for these injuries. About a week after this incident, Naji met plaintiff at
a local restaurant so he could see R. Plaintiff asked what had happened to R.’s eye and Naji
told him about the swing set accident at the playground. Plaintiff took multiple photographs

3

Case: 3:19-cv-00065-bbc Document#: 49 Filed: 03/12/20 Page4of 13

of the eye injury. Even though Naji explained how R. was injured, plaintiff kept saying that
the injury was caused by a man on State Street, and Naji could not convince him otherwise.
Naji has reviewed a document and photo that plaintiff filed on May 11, 2017, in a prior
lawsuit. The bruising to R.’s right eye that is shown in the photo appeared to be the same
injury that Naji saw R. sustain at the playground. According to Naji, R. did not sustain any
other injuries to the eye.

C. Plaintiff s December 22, 2017 Arrest
On December 22, 2017, defendant Figueroa was dispatched to West Wilson Street
in Madison to make contact with a man who wanted to report that a stylist at Ruby’s Salon
had intentionally cut the man’s ear during a haircut. Officers Baker and Liston (who is not
a defendant) also responded. The complainant told Figueroa that while he was getting his
haircut by a stylist named “Khaled,” the stylist seemed agitated and in a hurry and told him
to stop fidgeting. The complainant reported that the stylist (who was later identified as
plaintiff) then held the complainant’s head, grabbed and twisted his ear and intentionally
cut his right ear with scissors. The complainant also told Figueroa that plaintiff shaved a line
down the middle of his head with the “zero” attachment even though the complainant had
asked for the “two” attachment several times. When the complainant became upset and was
leaving the salon, plaintiff shouted “You wanted a zero right?” several times.
Figueroa observed dried blood on the complainant’s right ear and the condition of his
hair, which corroborated the complainant’s account. After interviewing plaintiff about the

4

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 5 of 13

incident, Figueroa concluded that the complainant was credible. Plaintiff did not provide
much information, telling Figueroa only that it was an accident and that he did not know
why the complainant left. Figueroa arrested plaintiff at approximately 6:21 p.m., for the
crimes of mayhem, Wis. Stat. § 940.21, and disorderly conduct, Wis. Stat. §947.01. Before
leaving the scene, Figueroa spoke with another stylist at Ruby’s who confirmed that plaintiff
had used a zero attachment even though she had heard the client ask for a two attachment.
This witness also said that plaintiff should not cut hair and that he “needs a mental health
doctor.”

D. March 23, 2018
On March 23, 2018, defendants Costin and Johnson were dispatched to the Naf Naf
Grill on State Street in Madison because of a disturbance. When Costin arrived at 9:09
p.m., he made contact with plaintiff, who reported that someone had battered him. Costin
asked plaintiff if he needed an ambulance, but plaintiff refused one. Costin obtained a
description of the suspect and provided it to Johnson, who arrived on scene less than a
minute later. Johnson searched the restaurant and the surrounding area but did not see
anyone meeting the suspect’s description. Johnson left about 10 minutes later.
Costin obtained a detailed statement from plaintiff about what happened, interviewed
two staff members from the restaurant and arranged for an investigator from the Madison
police department to photograph plaintiff s injuries. When Costin returned to the central
district station, he reviewed city cameras from the 500 and 600 blocks of State Street to try

5

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 6 of 13

to locate either the suspect or plaintiff. However, Costin was unable to locate the assailant.
Neither Costin nor Johnson were was acting as an undercover cop when interacting
with plaintiff. They did not witness or encourage anyone to hit or attack plaintiff and they
did not hit or attack plaintiff themselves.

E. Plaintiff s Previous Related Lawsuits
Prior to filing this lawsuit, plaintiff sued the Madison police department and several
police officers (who are not defendants in this case) in W.D. Wis. Case No. 16-cv-471 -bbc,
which this court dismissed on September 5, 2017 for failure to state a claim upon which
relief may be granted. In that lawsuit, plaintiff generally alleged intimidation, harassment,
threats and violation of civil rights, including allegations that law enforcement personnel had
beat his child, causing an eye injury. Plaintiff then filed a lawsuit against many of the same
defendants in the Circuit Court for Dane County (case no. 17-CV-2990), which that court
dismissed on January 12, 2018. In that lawsuit, plaintiff also generally alleged harassment,
abuse of his child and violation of his civil rights, all by law enforcement. Plaintiff filed an
appeal, which the Wisconsin Court of Appeals dismissed on December 11,2018 in case no.
2018AP000317.
Plaintiff also sued three police officers (nondefendants) in the Circuit Court for Dane
County case no. 18-CV-740, which Judge Rhonda Lanford dismissed on May 15, 2018. In
that lawsuit, plaintiff made general allegations of defamation and false arrest regarding the
December 22, 2017 incident. The Wisconsin Court of Appeals dismissed plaintiffs appeal

6

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 7 of 13

on October 17, 2018, in case no. 2018AP1948. Plaintiff filed a second lawsuit for false
arrest in the Circuit Court for Dane County (case no. 18-CV-2469) against defendant
Figueroa. The circuit court granted summary judgment in favor of Figueroa on April 26,
2019. Plaintiff did not file an appeal.

OPINION
A. Summary Judgment Standard
Summary judgment is appropriate only if the moving party can demonstrate “that
there is no genuine issue as to any material fact and the movant is entitled to judgment as
a matter of law.” Federal Rule of Civil Procedure 56(a); Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986). Defendants are entitled to judgment as a matter of law if plaintiff “has
failed to make a sufficient showing on an essential element of [his] case with respect to
which [he] has the burden of proof.” Celotex, 477 U.S. at 323. “[A] complete failure of
proof concerning an essential element of the nonmoving party’s case necessarily renders all
other facts immaterial.” Id “As the ‘put up or shut up’ moment in a lawsuit, summary
judgment requires a non-moving party to respond to the moving party’s properly-supported
motion by identifying specific, admissible evidence showing that there is a genuine dispute
of material fact for trial.” Grant v. Trustees of Indiana University, 870 F.3d 562, 568 (7th
Cir. 2017).

7

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 8 of 13

B. False Arrest
Plaintiff alleges that defendant Figueroa falsely arrested him in front of his salon on
December 22, 2017. Defendants contend that this claim is barred by the doctrine of claim
preclusion, which precludes a lawsuit “if the claim on which it is based arises from the same
incident, events, transaction, circumstances, or other factual nebula as a prior suit that had
gone to final judgment.” Okoro v. Bohman, 164 F. 3d 1059, 1062 (7th Cir. 1999) (citing
Wilson v. City of Chicago. 120F.3d 681,687 (7th Cir. 1997)); Andersen v. Chrysler Corp.,
99 F.3d 846, 852-53 (7th Cir. 1996); Hermann v. Cencom Cable Associates, Inc., 999 F.2d
223, 226 (7th Cir. 1993); Restatement (Second) of Judgments § 24 (1982). A final
judgment has preclusive effect if it is “on the merits,” meaning that it resolves the dispute
between the litigants. Okoro, 164 F. 3d at 1062.
It is undisputed that plaintiff filed two lawsuits in the Circuit Court for Dane County,
alleging false arrest with respect to the incident that occurred on December 22, 2017. On
April 26, 2019, in case no. 18-CV-2469, the circuit court granted summary judgment in
favor of defendant Figueroa as to plaintiff s false arrest claim against him. Plaintiff did not
appeal that judgment, and the time for appeal has passed, making the judgment final.
Therefore, the judgment entered in Dane County case no. 18-CV-2469 is a final judgment
on the merits that has preclusive effect, barring the same claim that plaintiff attempts to
bring against Figueroa in this case.
Even if plaintiffs claim is not barred by claim preclusion, there is no evidence that
defendant Figueroa acted unconstitutionally in arresting plaintiff on December 22, 2017.

8

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 9 of 13

To prevail on a Fourth Amendment claim for wrongful or false arrest, plaintiff must show
there was no probable cause for his arrest. Williams v, Rodriguez, 509 F.3d 392, 398 (7th
Cir. 2007); Mustafa v. City of Chicago, 442 F.3d 544, 547 (7th Cir. 2006) (“Probable cause
to arrest is an absolute defense to any claim under Section 1983 against police officers for
wrongful arrest[.]”). Probable cause exists if “at the time of the arrest, the facts and
circumstances within the officer’s knowledge ... are sufficient to warrant a prudent person,
or one of reasonable caution, in believing, in the circumstances shown, that the suspect has
committed, is committing, or is about to commit an offense. ” Gonzalez v. City of Elgin, 578
F.3d 526, 537 (7th Cir. 2009) (quoting Michigan v. DeFillippo, 443 U.S. 31, 37 (1979)).
“[Probable cause] is a fluid concept that relies on the common-sense judgment of the officers
based on the totality of the circumstances.” United States v. Reed, 443 F.3d 600, 603 (7th
Cir. 2006).
In this case, plaintiff was arrested for mayhem in violation of Wis. Stat. § 940.21
(“Whoever, with intent to disable or disfigure another, cuts or mutilates the . . . ear of
another.”) and disorderly conduct in violation ofWis. Stat. § 947.01 (“Whoever, in a public
or private place, engages in violent, abusive, indecent, profane, boisterous, unreasonably loud
or otherwise disorderly conduct under circumstances in which the conduct tends to cause or
provoke a disturbance.”). It is undisputed that defendant Figueroa had received a report that
plaintiff was agitated while cutting a customer’s hair; that he intentionally grabbed, twisted
and cut the customer’s ear; shaved a line down the customer’s head using a zero attachment
even though the customer had requested a two attachment; and shouted after the customer

9

Case: 3:19-cv-00065-bbc Document#: 49 Filed: 03/12/20 Page 10 of 13

as he left the salon. Figueroa personally observed dried blood on the complainant and the
condition of the complainant’s hair. A witness also confirmed the complainant’s version of
the haircut. A reasonable jury would conclude from these facts that defendant Figueroa had
probable cause to arrest plaintiff for mayhem and disorderly conduct. Therefore, Figueroa
is entided to summary judgment on the merits of plaintiff’s false arrest claim.

C. Failure to Intervene in Excessive Force
Plaintiff s allegations that defendants Costin and Johnson organized an attack on him
by an undercover police officer, or at least failed to intervene to stop the attack, implicate
his rights under the Fourth Amendment, which prevents police officers from using
“unreasonable” force in light of the “facts and circumstances of the particular case.” Kingsley
v. Hendrickson,

U.S.___, 135 S. Ct. 2466, 2473 (2015). Factors that may be relevant to

this determination include: the relationship between the need for the use of force and the
amount of force used; the extent of the plaintiff’s injury; any effort made by the officer to
temper or to limit the amount of force; the severity of the security problem at issue; the threat
reasonably perceived by the officer; and whether the plaintiff was actively resisting. Id “A
police officer can be liable for another officer’s excessive force ... if that officer had a realistic
opportunity to intervene and stop the first officer’s actions. A ‘realistic opportunity’ means a
chance to warn the officer using excessive force to stop.” Miller v. Gonzalez, 761 F.3d 822, 826
(7th Cir. 2014). See also Pullen v. House, 88 F. Supp. 3d 927, 944 (W.D. Wis. 2015) (citing
same).
Plaintiff has failed to present any evidence to support his vague allegation that he was

10

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 11 of 13

attacked by an undercover officer on March 23, 2018. The undisputed facts show that
defendants Costin and Johnson arrived at the Naf Naf Grill after the assault had occurred
and the assailant had left the scene. It is also undisputed that Costin and Johnson were not
acting undercover at the time of the incident, that they did not see anyone hit or attack
plaintiff and that they did not organize or encourage anyone to attack plaintiff. Without
more than mere speculation about his assailant being an undercover police officer, plaintiff
cannot show that Costin and Johnson are in any way liable for the use of excessive force on
plaintiff. Accordingly, defendants Costin and Johnson are entitled to summary judgment
with respect to plaintiffs claims against them.

D. First Amendment Retaliation
Plaintiff alleged in his complaint that defendants retaliated against him in the
following ways because he filed several lawsuits against Madison police officers in the past:
•

Defendant Figueroa falsely arrested plaintiff on December 22, 2017.

•

Defendants Costin and Johnson organized an attack on plaintiff on
March 22, 2018.

•

Defendant Koval ordered or encouraged the other defendants to harass
plaintiff in the above-described ways, and in 2015, he ordered
unidentified officers to beat plaintiffs three-year old child, who
suffered an eye injury.

To prevail on a First Amendment retaliation claim, plaintiff must prove three things:
(1) he was engaging in activity protected by the Constitution; (2) defendants’ conduct was
sufficiently adverse to deter a person of “ordinary firmness” from engaging in the protected

11

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 12 of 13

- activity in the future; and (3) defendants subjected plaintiff to adverse treatment because
of plaintiffs constitutionally protected activity. Gomez v. Randle, 680 F.3d 859, 866-67
(7th Cir. 2012); Bridges v. Gilbert. 557 F.3d541,555-56 (7th Cir. 2009). To hold the City
of Madison liable for the alleged retaliation, plaintiff must show that a city-wide policy,
custom or widespread practice or an official with final policy-making authority caused the
constitutional violation in question. Monell v. Department of Social Services, 436 U.S. 658,
690-91 (1971); Dixon v. County of Cook, 819 F.3d 343, 348 (7th Cir. 2016).
Although it is undisputed that plaintiff filed lawsuits against various police officers
between 2016 and 2018, he has failed to present any evidence that defendant Figueroa
falsely arrested him, that defendants Costin and Johnson organized an attack on him or that
police officers beat his child. In fact, as explained above, there is no evidence that plaintiff
suffered any adverse action at the hands of a City of Madison police officer. Accordingly,
defendants City of Madison, Koval, Figueroa, Costin and Johnson are entitled to summary
judgment with respect to plaintiff s First Amendment retaliation claims.

ORDER
IT IS ORDERED that the motion for summary judgment filed by defendants City of
Madison, Michael Koval, Damion Figueroa, Kevin Costin and Hamp Johnson, dkt. #27, is

12

Case: 3:19-cv-00065-bbc Document #: 49 Filed: 03/12/20 Page 13 of 13

GRANTED. The clerk of court is directed to enter judgment in favor of defendants and
close this case.

r

Entered this 12th day of March, 2020.
BY THE COURT:

N
BARBARA B. CRABB
District Judge

13

Case: 3:19-cv-00065-bbc Document #: 50 Filed: 03/12/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
KHALED SHABANI,
Plaintiff,
Case No. 19-cv-65-bbc
v.

CITY OF MADISON, MICHAEL KOVAL,
JENNIFER KRUGER FAVOUR, POLICE
AND FIRE COMMISSION, CITY OF
MADISON POLICE DEPARTMENT,
DAMION FIGUEROA, KEVIN COSTIN,
HAMP JOHNSON, JESSICA SOSKA, JEFF
PHARO, JASON SWEENY, SGT. BAKER,
SGT. BERKOVITZ, CAPT. FREEDMAN,
PROFESSIONAL STANDARDS AND
INTERNAL AFFAIRS UNIT, KRAIG
KALICA, KENNETH BROWN, JULIE
AHNEN, STATE OF WISCONSIN,
AND WISCONSIN DEPARTMENT OF
JUSTICE,
Defendants.

JUDGMENT IN A CIVIL CASE

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of
defendants dismissing this case.

/s/
Peter Oppeneer, Clerk of Court

3/12/2020
Date

h

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

December 11, 2020
By the Court:
KHALED SHABANI,
Plaintiff - Appellant
No. 20-2037

v.
STATE OF WISCONSIN and WISCONSIN DEPARTMENT OF
JUSTICE,
Defendants - Appellees

Originating Case Information: .

S •

District Court No: 3:20-cv-00404-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb

This cause, docketed on June 17,2020, is DISMISSED for failure to timely pay the required
docketing fee, pursuant to Circuit Rule 3(b).

form name: c7_FinalOrderWMandate(form ID: 137)

Case: 3:20-cv-00404-bbc Document #: 5 Filed: 05/28/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

KHALED SHABANI,
OPINION AND ORDER
Plaintiff,
20-cv-404-bbc
v.
STATE OF WISCONSIN and WISCONSIN
DEPARTMENT OF JUSTICE,
Defendants.

In this civil action for monetary and injunctive relief, pro se plaintiff Khaled Shabani
alleges that defendant Wisconsin Department of Justice violated his constitutional rights and
discriminated against him by not prosecuting the Madison Police Department and defendant
State of Wisconsin for unconstitutionally provoking judges to dismiss the cases he has filed
about the police. Because plaintiff is proceeding without prepayment of the filing fee, his
complaint must be screened under 28 U.S.C. § 1915 (e) to determine whether his complaint
is frivolous, malicious, fails to state a claim upon which relief may be granted or seeks money
damages from a defendant who is immune from such relief.
In screening any pro se litigant’s complaint, the court must read the allegations of the
complaint generously. Haines v. Kerner. 404 U.S. 519, 521 (1972). Having reviewed
plaintiff s complaint under this standard, I conclude that plaintiffs allegations do not state
a federal claim upon which relief may be granted.
dismissed.
1

Therefore, the complaint will be

Case: 3:20-cv-00404-bbc Document #: 5 Filed: 05/28/20 Page 2 of 3

OPINION
Plaintiff broadly asserts that defendant Wisconsin Department of Justice failed to
prosecute the Madison Police Department and judges with defendant State of Wisconsin
wrongly dismissed cases that he filed against police officers. As an initial matter, plaintiff
cannot proceed on any claims against the State of Wisconsin or the Wisconsin Department
of Justice because these proposed defendants are state entities that may not be sued under
42 U.S.C. § 1983. Will v, Michigan Department of State Police, 491 U.S. 58, 67 (1989)
(only “persons” maybe sued under § 1983); Thomas v. Illinois. 697 F.3d 612, 613 (7th Cir.
2012). In addition, the Eleventh Amendment bars suits by private citizens against a state
entity in federal court. Will, 491 U.S. at 64; Edelman v. Iordan, 415 U.S. 651,663 (1973);
Ryan v. Illinois Department of Children and Family Services, 185 F.3d 751, 758 (7th Cir.
1999).
However, even if plaintiff had named the individuals allegedly responsible for the
alleged actions against him, his allegations do not state any constitutional claim for relief.
Plaintiff s claims that state officials failed to prosecute the Madison Police Department and
that state court judges wrongly dismissed his case are barred by the doctrines of judicial and
prosecutorial immunity. These doctrines bar constitutional claims for actions taken by
judges within the scope of their judicial authority and actions taken by prosecutors in their
roles as advocates in court proceedings. Rehberg v. Paulk, 566 U.S. 356, 363 (2012);
Buckely v. Fitzsimmons, 509 U.S. 259, 273 (1993) (discussing prosecutorial immunity).
In addition, this court does not have the authority to order the prosecution of city

2

Case: 3:20-cv-00404-bbc Document #: 5 Filed: 05/28/20 Page 3 of 3

police officers, which is a decision left to the discretion of state and local officials. This court
also lacks the authority to review the decision of a state court judge.

Under the

Rooker-Feldman doctrine, a party “complaining of an injury caused by [a] state-court
judgment” cannot seek redress in a lower federal court. Exxon Mobil Corp, v. Saudi
Industries Corp., 544 U.S. 280,291-92 (2005); D.C. Court of Appeals v. Feldman, 460U.S.
462, 482 (1983); Rooker v. Fidelity Trust Co., 263 U.S. 413, 416 (1923). Rather, litigants
who believe that a state court proceeding has violated their rights must appeal that decision
through the state court system and then, if appropriate, to the United States Supreme Court.
Golden v. Helen Sigman & Associates, Ltd., 611 F.3d 356, 361-62 (7th Cir. 2010).
Therefore, if plaintiff wants to challenge the decision of a state court judge, he must do so
m state court.

ORDER
IT IS ORDERED that plaintiff Khaled Shabani's complaint is DISMISSED for failure
to state a claim upon which relief may be granted.
Entered this 28th day of May, 2020.
BY THE COURT:
/s/
BARBARA B. CRABB
District Judge

3

Case: 3:20-cv-00404-bbc Document#: 6

Filed: 05/28/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
KHALED SHABANI,
Plaintiff,
Case No. 20-cv-404-bbc
v.
STATE OF WISCONSIN AND
WISCONSIN JUSTICE DEPARTMENT,
Defendants.

JUDGMENT IN A CIVIL CASE

IT IS ORDERED AND ADJUDGED that judgment is entered dismissing this
case.

/s/

Peter Oppeneer, Clerk of Court

5/28/2020
Date

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Qerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

December 11,2020

By the Court:
KHALED SHABANI,
Plaintiff - Appellant
No. 20-2627

v.
KRAIG KALKA and KENNETH BROWN,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-00470-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb

This cause, docketed on August 27,2020, is DISMISSED for failure to timely pay the
required docketing fee, pursuant to Circuit Rule 3(b).

form name: c7_FinaIOrderWMandate(form ID: 137)

Case: 20-2627

Filed: 11/25/2020

Document: 10

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley DirksenUnited States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone:{312)435-5850
www.ca7.uscourts.gov

m
ORDER
November 25, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

KHALED SHABANI,
Plaintiff - Appellant
No. 20-2627

v.
KRAIG KALKA and KENNETH BROWN,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-00470-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb

Upon consideration of the MOTION TO WAIVE DOCKETING FEE PAYMENT,
construed as a motion to reconsider the October 30, 2020 order denying appellant's
motion to proceed in forma pauperis on appeal, filed on November 23, 2020, by the
pro se appellant,
\

IT IS ORDERED that the motion is DENIED.

i

form name: c7_Order_3J(form ID: 177)

A

Case: 20-2627

Document: 7

Filed: 09/15/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 15, 2020
By the Court:
KHALED SHABANI,
Plaintiff - Appellant
No. 20-2627

v.

KRAIG KALKA and KENNETH BROWN,
Defendants - Appellees
Originating Case Information:
District Court No: 3:20-cv-00470-bbc
Western District of Wisconsin
District Judge Barbara B. Crabb
The following is before the court: LETTER, filed on September 14, 2020, by pro se
Appellant Khaled Shabani.
On August 31, 2020, the district court revoked its order authorizing the appellant to
proceed in forma pauperis on appeal. The appellant has filed a motion to proceed in
forma pauperis in this court, which will be resolved as this court’s docket permits.
IT IS ORDERED that briefing is SUSPENDED pending resolution of the appellant's fee
status. The appellant's letter will be filed without further court action.

form name: c7_Order_BTC(form ID: 178)

Case: 3:20-cv-00470-bbc Document#: 14 Filed: 08/31/20 Page lot2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
KHALED SHABANI,
OPINION AND ORDER
Plaintiff,
20-cv-470-bbc
v.

KRAIG KALKA and KENNETH BROWN,
Defendants.
KHALED SHABANI
Plaintiff,

20-cv-404-bbc

v.

STATE OF WISCONSIN and WISCONSIN
DEPARTMENT OF JUSTICE,
Defendants.
Pro se plaintiff Khaled Shabani has filed notices of appeal in the above-captioned
cases, and he has not paid the appellate filing fees. This court previously permitted plaintiff
to proceed in forma pauperis in both cases. However, under 28 U.S.C. § 1915(a)(3) and
Fed. R. App. P. 24(a)(3), a party may not proceed on appeal without prepaying the filing fee
if the district court certifies that the appeal is not taken in good faith. Both of these cases
were screened and found to be frivolous. Plaintiff s allegations were largely incomprehensible
and did not provide a plausible basis to suggest that any of the defendants had violated his
constitutional rights. An appeal of a frivolous case is not taken in good faith. Fontanez v.

1

Case: 3:20-cv-00470-bbc Document#: 14 Filed: 08/31/20 Page 2 of 2

Time Warner Cable, 618 Fed. Appx. 288,289 (7th Cir. 2015) (“[B]ecause the district court
found that [the] suit was frivolous, it should have certified that [the] appeal was taken in bad
faith and revoked the order authorizing [the plaintiff] to proceed in forma pauperis on
appeal.”). Therefore, I will certify that the appeals in case nos. 20-cv-404-bbc and 20-cv470-bbc are not taken in good faith and will revoke the previous orders authorizing plaintiff
to proceed in forma pauperis.

ORDER
IT IS ORDERED that the court certifies that plaintiff Khaled Shabani’s appeals in
case nos. 20-cv-404-bbc and 20-cv-470-bbc are not taken in good faith. The court’s previous
orders authorizing plaintiff to proceed in forma pauperis are REVOKED.
Entered this 31st day of August, 2020.
BY THE COURT:
/s/
BARBARA B. CRABB
District Judge

2

Case: 3:20-cv-00470-bbc Document#: 8 Filed: 07/28/20 Page lot3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
KHALED SHABANI,
OPINION AND ORDER
Plaintiff,
20-cv-470-bbc
v.
KRAIG KALKA and KENNETH BROWN,
Defendants.
Pro se plaintiff Khaled Shabani filed a civil action under 42 U.S.C. § 1983,
contending that defendants Kraig Kalka and Kenneth Brown violated his constitutional
rights by harassing and intimidating him and his daughter in numerous ways. On June 11,
2020,1 dismissed plaintiffs complaint under Rule 8 of the Federal Rules of Civil Procedure
because his complaint did not provide enough information for me to determine whether
subject matter jurisdiction exists or whether plaintiff would be entided to any relief against
either of the named defendants, but I gave plaintiff an opportunity to file an amended
complaint that explained his claims more clearly. Dkt. #5. In response, plaintiff has filed
a proposed amended complaint.

Dkt. #6.

Because plaintiff is proceeding without

prepayment of the filing fee, his amended complaint must be screened under 28 U.S.C. §
1915(e) to determine whether his complaint is frivolous, malicious, fails to state a claim
upon which relief may be granted or seeks money damages from a defendant who is immune
from such relief.
Having read the allegations of the amended complaint generously, as I am required
to do for pro se litigants, Haines v. Kerner, 404 U.S. 519, 521 (1972), I conclude that
1

Case: 3:20-cv-00470-bbc Document #: 8 Filed: 07/28/20 Page 2 of 3

plaintiffs allegations do not state a federal claim upon which relief may be granted.
Therefore, the amended complaint will be dismissed.

OPINION
Plaintiff asserts that defendants Kraig Kalka and Kenneth Brown, who are police
officers with the Madison Police Department, violated his civil rights by standing and walking
in front of his hair salon on State Street in Madison, Wisconsin and waving and pointing at
him on numerous occasions between 2014 and May 1, 2020. Although he alleges that
defendants led him to believe that they wanted to arrest him, he does not allege that they ever
arrested him, verbally threatened him or touched him in any way.
“[P]olice harassment, without more, cannot form a basis for a § 1983 cause of action.”
Harris v. City of West Chicago, Illinois, 2002 WL 31001888, at *3 (N.D. III. Sept. 3, 2002)
(quoting Arnold v. Truemper, 833 F. Supp. 678, 682 (N.D. Ill. 1993)). See also Dick v.
Gainer, 1998 WL 214703, at *5 (N.D. Ill. Apr. 23, 1998) ("There is no constitutional right
to be free from threats of arrest; an actual civil rights violation must occur before a cause of
action arises under § 1983.”). "[CJitizens do not have a constitutional right to courteous
treatment by the police. Verbal harassment and abusive language, while ‘unprofessional and
inexcusable,’ are simply not sufficient to state a constitutional claim under 42 U.S.C. §
1983.” Slagel v. Shell Oil Refinery. 811 F. Supp. 378, 382 (C.D. III. 1993), affd, 23 F.3d
410 (7th Cir. 1994). See also Arnold, 833 F. Supp. at 683 (“Inconvenience, aggravation and
alleged injuries to reputation caused by police officers do not amount to [a constitutional]

2

Case: 3:20-cv-00470-bbc Document #: 8 Filed: 07/28/20 Page 3 of 3

violation.”). In this case, plaintiffs’ allegations that defendants walked or stood in front of
his store and waved and pointed at him do not rise to the level of a constitutional violation.
Harris. 2002 WL 31001888, at *3 (frequent drive-bys, shining spotlight in windows and
verbal threat to “watch it—we’re going to get you and your family” did not rise to level of
constitutional violation); Goldberg v. Weil. 707 F. Supp. 357, 361 (N.D. Ill. 1989)
(dismissing harassment claim based on allegations police banged on plaintiff s doors, jumped
over locked fence into backyard, shouted at her and threatened her with arrest).
As in his previous lawsuit filed in this court, case no. 19-cv-65-bbc, plaintiff also alleges
that he believes that defendants beat his daughter in the eye in October 2015. However, as
I explained to plaintiff in orders issued in his previous lawsuit, he lacks standing to pursue a
constitutional claim on his daughter’s behalf. Therefore, plaintiff’s amended complaint will
be dismissed for failure to state a federal claim upon which relief may be granted.

ORDER
IT IS ORDERED that plaintiff Khaled Shabani’s amended complaint is DISMISSED
for failure to state a claim upon which relief may be granted.
Entered this 28th day of July, 2020.
BY THE COURT:

M
BARBARA B. CRABB
District Judge

3

